No.

__________________
__________________

IN THE SUPREME COURT OF THE UNITED STATES
__________________________
Jonathon Herrera – PETITIONER
vs.
United States of America – RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

Patrick A. Mullin, Esq.
The Law Offices of Patrick A. Mullin
45 Rockefeller Plaza, Suite 2000
New York, New York 10111
Telephone: (212)639-1600
Facsimile: (201)242-9610
Mullin@taxdefense.com
Attorney for Petitioner,
Jonathon Herrera

Table of Contents
Table of Authorities …………………………………………………………….…………… iii
Question Presented ………………………………………………………….……………….. 1
Parties to the Proceeding …………………………………………………..………………… 1
Opinion Below ……………………………………………………………….………………… 3
Jurisdiction …………………………………………………………….……………………… 3
Statutory Provisions Involved ………………………………………………………………. 4
Statement of the Case ……………………………………………………………………..…. 8
I.

District Court Indictment, Conviction, and Sentencing ………………… 8

II.

Fifth Circuit Appeal of Conviction ………………………………………… 10

III.

28 U.S.C. § 2255 Motion to Set Aside, Vacate, or Correct Sentence …. 11

IV.

Request for Certificate of Appealability as to § 2255 Motion …………. 13

V.

Request for Relief Pursuant to Rule 60(b) ……………………………….. 14

VI.

Fifth Circuit Appeal of Rule 60(b) Motion ……………………………….. 15

Argument in Support ……………………………………………………………………….. 17
I.

Precedent from this Court Makes Clear that a Circuit Court
Should Engage in a Mere Threshold Inquiry in Deciding a Motion
for a COA and Should Not Address the Merits of the Underlying
Petition for Post-Conviction Relief ………………………………………... 17

II.

The Fifth Circuit Improperly Decided Petitioner’s Motion for a COA
on the Merits of His § 2255 Petition Rather than Engaging in the
Proper Threshold Inquiry Set by this Court’s Precedent ……………… 20

III.

Reasonable Jurists Could Debate Whether Petitioner Made
the Necessary Showing to Reopen His § 2255 Motion by Way of His
Rule 60(b) Motion, Warranting a COA …………………………………… 21
A.

Rule 60(b) Can Be Utilized to Reopen a § 2255 Motion Where
“Extraordinary Circumstances” Exist Warranting Relief ..…… 21

B.

Petitioner Made a Threshold Showing in His Rule 60(b) Motion
and Subsequent Motion for COA that the Limitations Period
for Filing Petitioner’s § 2255 Motion Should Be Equitably
Tolled Due to Petitioner’s Reliance on Affirmative
i

Misrepresentations by His Prior Counsel ………………………... 22
C.

IV.

Petitioner Made a Threshold Showing in His Rule 60(b)
Motion and Subsequent Motion for COA that Because the
Limitations Period Should Be Equitably Tolled, Relief from
the Court’s October 1, 2019 Order Dismissing Petitioner’s
§ 2255 Motion Is Warranted Under Rule 60(b)(2), (6) …………. 27

Therefore, Certiorari Should Be Granted Because the Fifth Circuit’s
Decision Was Contrary to this Court’s Precedent ………………...…….. 28

Conclusion ………………………………………………………………………….………… 30

ii

Table of Authorities
Statutes, Rules, & Regulations
U.S. CON., Amend. V ………………………………………………….………….…. 11
18 U.S.C. § 924 …………………………………………………………………….….. 9
18 U.S.C. § 3231 ………………………………………….…………………………… 4
21 U.S.C. § 841 …………………………………………..……………………………. 9
21 U.S.C. § 846 ………………………………….………………………………….. 8, 9
28 U.S.C. § 1254(1) …………………………….……………………………………… 3
28 U.S.C. § 1291 ………………………………………………………………………. 4
28 U.S.C. § 2253 …………………………………………………………..………. 4, 17
28 U.S.C. § 2255 …………………………..……………………………………. passim
Federal Rule of Civil Procedure 60(b) …………….………………………… passim
Supreme Court Rule 10 …………………………………………………………….. 28
Supreme Court Rule 13 ………………………………………………………………. 3
Case Law
Buck v. Davis, 137 S. Ct. 759 (2017) …………………………..… 19, 20, 21, 22, 29
Didon v. Winchester, 2011 U.S. Dist. LEXIS 13113 (S.D. Miss. 2011) ….…… 24
Hohn v. United States, 524 U.S. 236 (1998) …………………………….………… 3
Hurst v. Cain, 2008 U.S. Dist. LEXIS 70262 (E.D. La. 2008) ………...………. 24
Miller-El v. Cockrell, 537 U.S. 322 (2003) ……………………… 18, 19, 20, 21, 29
Olivo v. Quarterman, 2007 U.S. Dist. LEXIS 101814 (N.D. Tex. 2007) …..… 24
Slack v. McDaniel, 529 U.S. 473 (2000) …………………………….. 17, 18, 21, 29
United States v. Patterson, 211 F.3d 927 (5th Cir. 2000) …………...…………. 22
United States v. Perkins, 481 Fed. Appx. 114 (5th Cir. 2012) ………...………. 23
United States v. Riggs, 314 F.3d 796 (5th Cir. 2002) ……..……………………. 23
United States v. Wynn, 292 F.3d 226 (5th Cir. 2002) …………………..………. 23
Wessinger v. Cain, 358 F. Supp. 2d 523 (M.D. La. 2005) ……………….……… 24
iii

Secondary Sources
March 19, 2020 Order of the Supreme Court ………………………..…………… 3

iv

QUESTIONS PRESENTED
I.

This Court has held a certificate of appealability (“COA”) should issue where
the petitioner has made a threshold showing that jurists of reason could
disagree with the district court’s holding or that jurists could conclude the
issues presented are adequate to deserve encouragement to proceed further.
This Court has specifically held, moreover, that where the petitioner has filed
a motion under Federal Rule of Civil Procedure 60(b) to reopen a habeas corpus
proceeding under 28 U.S.C. § 2255, a COA should issue as to the Rule 60(b)
motion where “reasonable jurists could debate the District Court’s procedural
holding that [the petitioner] had not made the necessary showing to reopen his
case under Rule 60(b)(6)[.]” Accordingly, the issue presented is whether the
order of the United States Court of Appeals for the Fifth Circuit holding that
Petitioner failed to make this threshold showing and refusing to grant a COA
as to the district court’s denial of Petitioner Rule 60(b) Motion conflicts with
this Court’s precedent?
PARTIES TO THE PROCEEDING
All parties appear in the caption of the case on the cover page.

1

IN THE SUPREME COURT OF THE UNITED STATES
___________________
No. ___________
JONATHON HERRERA,
Petitioner,
- v. –
UNITED STATES OF AMERICA,
Respondent
___________________
ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATED COURT OF APPELAS
FOR THE FIFTH CIRCUIT
___________________
PETITION FOR A WRIT OF CERTIORARI
___________________
Petitioner, Jonathon Herrera (“Petitioner”), respectfully petitions this Court
for a writ of certiorari to review the judgment of the United States Court of Appeals
for the Fifth Circuit in this case (“Petition”).

2

OPINION BELOW
On May 17, 2021, the United States Court of Appeals for the Fifth Circuit
(“Fifth Circuit”) entered an Order denying Petitioner’s Motion for a COA as to an
October 1, 2019 Order of the United States District Court for the Northern District
of Texas (“District Court”) denying Petitioner’s Motion for Relief Under Rule 60(b).
On June 8, 2021, the Fifth Circuit entered an Order denying Petitioner’s Petition for
Rehearing En Banc.
These and all other orders entered by the Fifth Circuit in this matter are
attached herein, along with the District Court’s October 14, 2020 Order denying
Petitioner’s Rule 60(b) Motion and other relevant orders entered by the District Court
and other filings which may be relevant to this Court’s consideration of this Petition.
JURISDICTION
The Fifth Circuit entered its Order denying the Motion for a COA on May 17,
2021 and entered its Order denying Petitioner’s timely Petition for Rehearing En
Banc on June 8, 2021. This Petition is, therefore, timely filed pursuant to Supreme
Court Rule 13, as modified by this Court’s March 19, 2020 Order extending the time
for filing of petitions for a writ of certiorari in all cases filed after that date to onehundred and fifty (150) days due to the COVID-19 pandemic.
This Court has proper jurisdiction pursuant to 28 U.S.C. § 1254(1) and Hohn
v. United States, 524 U.S. 236, 253 (1998) (holding that the Supreme Court has
jurisdiction to review denials of applications for a COA).
3

The District Court had jurisdiction pursuant to 18 U.S.C. § 3231, and the Fifth
Circuit had jurisdiction pursuant to 28 U.S.C. § 1291.
STATUTORY PROVISIONS INVOLVED
28 U.S.C. § 2253 provides,
“(a)

In a habeas corpus proceeding or a proceeding under
section 2255 [28 USCS § 2255] before a district
judge, the final order shall be subject to review, on
appeal, by the court of appeals for the circuit in
which the proceeding is held.

(b)

There shall be no right of appeal from a final order
in a proceeding to test the validity of a warrant to
remove to another district or place for commitment
or trial a person charged with a criminal offense
against the United States, or to test the validity of
such
person’s
detention
pending
removal
proceedings.

(c)
(1)

Unless a circuit justice or judge issues a
certificate of appealability, an appeal may not
be taken to the court of appeals from—
(A)

the final order in a habeas corpus
proceeding in which the detention
complained of arises out of process
issued by a State court; or

(B)

the final order in a proceeding under
section 2255 [28 USCS § 2255].

(2)

A certificate of appealability may issue under
paragraph (1) only if the applicant has made
a substantial showing of the denial of a
constitutional right.

(3)

The certificate of appealability under
paragraph (1) shall indicate which specific
issue or issues satisfy the showing required by
paragraph (2).”
4

28 U.S.C. § 2255 provides,
“(a)

A prisoner in custody under sentence of a court
established by Act of Congress claiming the right to
be released upon the ground that the sentence was
imposed in violation of the Constitution or laws of
the United States, or that the court was without
jurisdiction to impose such sentence, or that the
sentence was in excess of the maximum authorized
by law, or is otherwise subject to collateral attack,
may move the court which imposed the sentence to
vacate, set aside or correct the sentence.

(b)

Unless the motion and the files and records of the
case conclusively show that the prisoner is entitled
to no relief, the court shall cause notice thereof to be
served upon the United States attorney, grant a
prompt hearing thereon, determine the issues and
make findings of fact and conclusions of law with
respect thereto. If the court finds that the judgment
was rendered without jurisdiction, or that the
sentence imposed was not authorized by law or
otherwise open to collateral attack, or that there has
been such a denial or infringement of the
constitutional rights of the prisoner as to render the
judgment vulnerable to collateral attack, the court
shall vacate and set the judgment aside and shall
discharge the prisoner or resentence him or grant a
new trial or correct the sentence as may appear
appropriate.

(c)

A court may entertain and determine such motion
without requiring the production of the prisoner at
the hearing.

(d)

An appeal may be taken to the court of appeals from
the order entered on the motion as from the final
judgment on application for a writ of habeas corpus.

(e)

An application for a writ of habeas corpus in behalf
of a prisoner who is authorized to apply for relief by
motion pursuant to this section, shall not be
entertained if it appears that the applicant has
failed to apply for relief, by motion, to the court
which sentenced him, or that such court has denied
him relief, unless it also appears that the remedy by
5

motion is inadequate or ineffective to test the
legality of his detention.
(f)

A 1-year period of limitation shall apply to a motion
under this section. The limitation period shall run
from the latest of—
(1)

the date on which the judgment of conviction
becomes final;

(2)

the date on which the impediment to making
a motion created by governmental action in
violation of the Constitution or laws of the
United States is removed, if the movant was
prevented from making a motion by such
governmental action;

(3)

the date on which the right asserted was
initially recognized by the Supreme Court, if
that right has been newly recognized by the
Supreme Court and made retroactively
applicable to cases on collateral review; or

(4)

the date on which the facts supporting the
claim or claims presented could have been
discovered through the exercise of due
diligence.

(g)

Except as provided in section 408 of the Controlled
Substances Act [21 USCS § 848], in all proceedings
brought under this section, and any subsequent
proceedings on review, the court may appoint
counsel, except as provided by a rule promulgated by
the Supreme Court pursuant to statutory authority.
Appointment of counsel under this section shall be
governed by section 3006A of title 18.

(h)

A second or successive motion must be certified as
provided in section 2244 [28 USCS § 2244] by a panel
of the appropriate court of appeals to contain—
(1)

newly discovered evidence that, if proven and
viewed in light of the evidence as a whole,
would be sufficient to establish by clear and
convincing evidence that no reasonable
factfinder would have found the movant
guilty of the offense; or
6

(2)

a new rule of constitutional law, made
retroactive to cases on collateral review by the
Supreme Court, that was previously
unavailable.”

Federal Rule of Civil Procedure 60 provides,
“(a)

Corrections Based on Clerical Mistakes; Oversights
and Omissions. The court may correct a clerical
mistake or a mistake arising from oversight or
omission whenever one is found in a judgment,
order, or other part of the record. The court may do
so on motion or on its own, with or without notice.
But after an appeal has been docketed in the
appellate court and while it is pending, such a
mistake may be corrected only with the appellate
court’s leave.

(b)

Grounds for Relief from a Final Judgment, Order, or
Proceeding. On motion and just terms, the court may
relieve a party or its legal representative from a final
judgment, order, or proceeding for the following
reasons:

(c)

(1)

mistake, inadvertence, surprise, or excusable
neglect;

(2)

newly discovered evidence that, with
reasonable diligence, could not have been
discovered in time to move for a new trial
under Rule 59(b);

(3)

fraud (whether previously called intrinsic or
extrinsic), misrepresentation, or misconduct
by an opposing party;

(4)

the judgment is void;

(5)

the judgment has been satisfied, released, or
discharged; it is based on an earlier judgment
that has been reversed or vacated; or applying
it prospectively is no longer equitable; or

(6)

any other reason that justifies relief.

Timing and Effect of the Motion.
(1)

Timing. A motion under Rule 60(b) must be
made within a reasonable time—and for
7

reasons (1), (2), and (3) no more than a year
after the entry of the judgment or order or the
date of the proceeding.
(2)

(d)

(e)

Effect on Finality. The motion does not affect
the judgment’s finality or suspend its
operation.

Other Powers to Grant Relief. This rule does not
limit a court’s power to:
(1)

entertain an independent action to relieve a
party from a judgment, order, or proceeding;

(2)

grant relief under 28 U.S.C. § 1655 to a
defendant who was not personally notified of
the action; or

(3)

set aside a judgment for fraud on the court.

Bills and Writs Abolished. The following are
abolished: bills of review, bills in the nature of bills
of review, and writs of coram nobis, coram vobis, and
audita querela.”
STATEMENT OF THE CASE

I.

District Court Indictment, Conviction, and Sentencing

Petitioner was initially arrested in this matter on June 7, 2016 pursuant to a
criminal complaint issued against him on November 3, 2015 in the Northern District
of Texas, docket no. 4:2016-cr-00107, alleging that he and three (3) co-defendants
engaged in a conspiracy to possess with intent to distribute a controlled substance in
violation of 21 U.S.C. § 846—namely, fifty (50) grams of more of methamphetamine.
Petitioner began cooperating with the Government following his arrest, and
his cooperation apparently led to the arrest of at least three (3) other individuals. On
June 8, 2016, however, Petitioner failed to appear at an arraignment in the District
Court.

8

On June 15, 2016, a Second Superseding Indictment was issued against
Petitioner, charging him with one (1) count of conspiracy to possess with intent to
distribute a controlled substance in violation of 21 U.S.C. § 846.
Petitioner was apprehended in September, 2016, at which time U.S. Marshals
allegedly located a small amount of cocaine and a firearm in the vehicle Petitioner
was driving.
Subsequently, on December 14, 2016, a Third Superseding Indictment was
issued against Petitioner, charging him with one (1) count of conspiracy to possess
with intent to distribute a controlled substance in violation of 21 U.S.C. § 846
(namely, fifty (50) grams or more of methamphetamine), one (1) count of possession
with intent to distribute a controlled substance in violation of 21 U.S.C. §§ 841(a)(1),
(b)(1)(C), and one (1) count of possession of a firearm in furtherance of a drug
trafficking crime in violation of 18 U.S.C. § 924(c)(1)(A)(i).
A jury trial commenced in Petitioner’s matter on January 9, 2017, and the jury
found Petitioner guilty the following day of one (1) count of conspiracy to possess with
intent to distribute a controlled substance in violation of 21 U.S.C. § 846 and not
guilty as to Counts Two and Three of the Third Superseding Indictment.
Petitioner was sentenced by the District Court on May 12, 2017 to a term of
four-hundred and eighty (480) months’ imprisonment and four (4) years’ supervised
release. Due to the amount of methamphetamine alleged to have been involved in
the count of conviction, a ten-year (10) mandatory minimum applied under 21 U.S.C.
§§ 846 and §§ 841(a)(1), (b)(1)(C). Although the May 12, 2017 judgment entered by

9

the District Court states that a “Statement of Reasons” is attached, no such
Statement of Reasons was provided on the District Court’s docket.
Petitioner is presently serving his sentence at the FTC Oklahoma City facility.
II.

Fifth Circuit Appeal of Conviction

On May 23, 2017, Petitioner submitted, through counsel, a notice of appeal of
his sentence and conviction and, subsequently, filed an appellate brief with the Fifth
Circuit, docket no. 2017-dcrim-10582. In Petitioner’s appellate brief, he argued, in
summary, that the District Court reversibly erred in refusing to sever Count One of
the Third Superseding Indictment from Counts Two and Three and that the District
Court plainly erred in calculating Petitioner’s criminal history score under the United
States Sentencing Guidelines (“Guidelines”).
The Government filed a response brief on October 24, 2017.
Through a February 22, 2018 unpublished per curium Opinion and Order and
a March 16, 2018 Mandate, the Fifth Circuit affirmed Petitioner’s conviction and
sentence. In the unpublished Opinion, the Fifth Circuit held, in summary, that even
if joinder of Count One with Counts Two and Three was improper, Petitioner failed
to clear, specific, and compelling prejudice as a result and that any error by the
District Court in calculating Petitioner’s criminal history score did not affect his
substantial rights because Petitioner’s sentence would have been within the
Guidelines’ range either way.

10

III.

28 U.S.C. § 2255 Motion to Set Aside, Vacate, or Correct
Sentence

On June 11, 2019, Petitioner filed with the District Court, docket no. 4:2019civ-00460, a Motion to Set Aside, Vacate, or Correct a Sentence under 28 U.S.C. §
2255 (“§ 2255 Motion”). In the § 2255 Motion, Petitioner argued, in summary:
1.

He was coerced into confessing to being a part of the alleged conspiracy,
in violation of the Fifth Amendment and which Petitioner argued
amounted to prosecutorial misconduct;

2.

His trial counsel was ineffective, due to personality conflicts with
Petitioner’s parents, “in failing to get evidence suppressed, calling me as
a witness against all better judgment saying otherwise, failing to
properly investigate germane evidence, conceding points for contention,
and providing milquetoast objections to a clearly hostile judge”, and his
appellate counsel was ineffective “in his attempts to show the bias and
abuse of discretion on the part of the district court”;

3.

The District Court Judge was biased, which led to “a biased trial and
guilty verdict”; and

4.

Petitioner’s sentence of 408 months’ imprisonment constituted cruel and
unusual punishment for a first-time drug offense.

Petitioner argued, among other things, that he was arrested under the wrong
name (“Jonathon Obregon”), suggesting a case of mistaken identity, and that his trial
counsel failed to request and obtain critical evidence from the Government, including,
among others, any recordings of Petitioner’s interviews with law enforcement agents,
11

failed to call critical witnesses, and offered very limited objections to the
Government’s case in chief. Petitioner’s trial counsel, moreover, called no witnesses
at trial beyond Petitioner himself.
Petitioner also noted in his § 2255 Motion that his trial counsel had requested
to be removed from the case, but that his request was denied by the District Court,
which Petitioner submitted further evidenced the ineffectiveness of his counsel at
trial.
While the § 2255 Motion was technically filed pro se by Petitioner, he
completed it with the guidance, counsel, and assistance of a consulting firm and one
of its employees, who was hired by Petitioner’s mother, Cynthia Argil (“Ms. Argil”).
This consultant first held himself out to Ms. Argil as a licensed attorney and
later repeatedly assured Ms. Argil that her brother’s § 2255 Motion would be
prepared by attorneys and filed on time, as set forth in Ms. Argil’s affidavit which
was enclosed as “Exhibit A” to Petitioner’s Rule 60(b) Motion. Unbeknownst to Ms.
Argil and Petitioner, this individual was not in fact a licensed attorney, and the §
2255 Motion was not timely filed.
On September 10, 2019, the Government filed a motion to dismiss Petitioner’s
§ 2255 Motion on the basis that it was untimely because it was filed outside the
applicable statute of limitations period. Petitioner filed a reply to the Government’s
motion to dismiss on September 30, 2019.
Through an October 1, 2019 Order, the District Court dismissed Petitioner’s §
2255 Motion as time-barred on the basis that the one-year (1) statute of limitations

12

began to run on the date of the Fifth Circuit’s February 22, 2018 opinion, rather than
the date of the March 16, 2018 Fifth Circuit mandate, plus the ninety-day (90) period
for petitioning for a writ of certiorari from the Supreme Court. The District Court
concluded in the Order that Petitioner’s judgment, therefore, became final on May
23, 2018, and the statute of limitations for filing a § 2255 motion expired on May 23,
2019.
Ms. Argil asserts, as set forth in her affidavit, that she and Petitioner had been
incorrectly advised by the individual who assisted in preparing the § 2255 Motion on
multiple occasions that the limitations period for doing so ran from the date of the
Fifth Circuit Mandate, rather than the date of the Fifth Circuit Order, which is why
the § 2255 Motion was not filed within the correct limitations period.
Petitioner and his mother reasonably relied on this incorrect advice, as they
had been misled by this individual into believing that he was a licensed attorney and
that the motion would be prepared with the guidance of other licensed attorneys from
the “federal defense consulting” firm which he had hired.
IV.

Request for Certificate of Appealability as to § 2255 Motion

On December 11, 2019, Petitioner submitted a pro se motion for a COA from
the Fifth Circuit, docket no. 2019-prswo-11133, in order to appeal the District Court’s
denial of his § 2255 Motion. In his pro se motion, Petitioner argued, in summary,
that the limitations period should have been equitably tolled, his § 2255 Motion
should have been held in abeyance pending a decision from this Court in the matter

13

of Shular v. United States, and the District Court opened the door for appellate review
when it addressed the merits of his § 2255 Motion.
The Government did not file a response to Petitioner’s pro se motion for a COA
as to his § 2255 Motion.
On May 29, 2020, the Fifth Circuit issued an Order denying Petitioner’s
request for a COA, on the basis that he failed to make the required “substantial
showing of the denial of a constitutional right”.
V.

Request for Relief Pursuant to Rule 60(b)

Petitioner subsequently retained new counsel, who submits this Petition on his
behalf, and through whom he submitted to the District Court on October 13, 2020,
docket no. 4:2019-cv-00460, a motion for relief under Federal Rule of Civil Procedure
60(b) (“Rule 60(b) Motion”) from the District Court’s October 1, 2019 Order. Because
the Order in question was entered on October 1, 2019, Petitioner’s Rule 60(b) Motion
was timely under Rule 60(b).
In the Rule 60(b) Motion, Petitioner argued, in summary, that relief from the
District Court’s order denying Petitioner’s § 2255 Motion is warranted under Rule
60(b) based upon newly discovered evidence and/or “other reasons justifying relief”,
because the limitations period for the filing of that petition should be equitably tolled
due to Petitioner’s reliance on affirmative misrepresentations made by prior counsel
and such affirmative misrepresentations constitute “newly discovered evidence”.

14

Accordingly, Petitioner requested in his Rule 60(b) Motion that the District
Court reopen his § 2255 Motion to allow the filing of an amended and/or
supplemented petition by new counsel.
The Government did not file a response to Petitioner’s Rule 60(b) Motion.
The District Court entered an Order on October 14, 2020 denying Petitioner’s
Rule 60(b) Motion on the basis, in summary, that Petitioner knew in October, 2019
that his § 2255 Motion was untimely and yet waited an additional year before seeking
relief.
The District Court further held that even if it had found equitable tolling was
warranted, Petitioner had not “shown any ground that would have been meritorious”.
Finally, the District Court held that Petitioner failed to make a substantial showing
of the denial of a constitutional right and, therefore, that it would not issue a COA.
VI.

Fifth Circuit Appeal of Rule 60(b) Motion

Petitioner subsequently filed on October 21, 2020, through counsel, a notice of
appeal to the Fifth Circuit, docket no. 2020-prsw-11060, as to the District Court’s
denial of his Rule 60(b) Motion.
On October 26, 2020, the Fifth Circuit issued a letter advising that a motion
for a COA must be filed before an appeal of the Rule 60(b) Motion could proceed.
Petitioner moved for permission from the Fifth Circuit to submit a Motion for
a COA and supporting Memorandum of Law one (1) day out of time, which was
granted by the Fifth Circuit through an Order dated December 10, 2020. Petitioner

15

thereafter filed with the Fifth Circuit, through counsel, his Motion for a COA and
supporting Memorandum of Law on that same date.
In the Motion for a COA, Petitioner submitted, in summary, that:
1.

Petitioner made a substantial showing that relief is warranted under
Rule 60(b) because the limitations period for filing his § 2255 Motion
should be equitably tolled due to Petitioner’s reliance on affirmative
misrepresentations by his prior counsel;

2.

Petitioner made a substantial showing that because equitable tolling of
the limitations period is warranted as a result of Petitioner’s reasonable
reliance on affirmative misrepresentations made by his prior counsel
resulting in the filing of his § 2255 Motion outside the applicable
limitations period, relief is warranted under Rule 60(b) from the District
Court’s October 1, 2019 Order denying Petitioner’s § 2255 Motion as
time barred; and

3.

Reasonable jurists could disagree with the District Court’s decision to
dismiss Petitioner’s Rule 60(b) Motion, warranting a COA.

Once again, the Government failed to file a response to Petitioner’s Motion for
a COA.
On May 17, 2021, the Fifth Circuit issued an Order denying the Motion for
COA on the basis that Petitioner failed to make a substantial showing of the denial
of a constitutional right.

16

The Fifth Circuit did not elaborate in its May 17, 2021 Order as to the basis
for its denial, other than reciting the standard from Slack v. McDaniel, 529 U.S. 473
(2000) which held that, where, as here, the district court rejects the petition on
procedural grounds, “a COA should issue when the prisoner shows, at least, that
jurists of reason would find it debatable whether the petition states a valid claim of
the denial of a constitutional right and that jurists of reason would find it debatable
whether the district court was correct in its procedural ruling.”
On May 28, 2021, Petitioner submitted, through counsel, a petition for
rehearing en banc by the Fifth Circuit.
On June 8, 2021, the Fifth Circuit entered an Order treating the petition for
rehearing as a petition for reconsideration and denying the petition. On June 16,
2021, the Fifth Circuit entered a mandate denying the motion for COA on the basis
that Mr. Herrera failed to make a substantial showing of the denial of a constitutional
right.
This timely Petition followed as to the issue set forth above.
ARGUMENT IN SUPPORT
I.

Precedent from this Court Makes Clear that a Circuit
Court Should Engage in a Mere Threshold Inquiry in
Deciding a Motion for a COA and Should Not Address the
Merits of the Underlying Petition for Post-Conviction
Relief.

28 U.S.C. § 2253 provides that a final order issued in a habeas corpus
proceeding under 28 U.S.C. § 2255 may not be appealed “[u]nless a circuit justice or
judge issues a certificate of appealability.” The statute further provides that a COA

17

may issue “only if the applicant has made a substantial showing of the denial of a
constitutional right.”
Precedent from this Court, discussed below, makes clear that in deciding a
motion for a COA, the circuit court should engage in a threshold inquiry only and
should not address the merits of the underlying petition for post-conviction relief.
This precedent holds that a COA should issue if the threshold inquiry indicates that
reasonable jurists could debate whether the petition raised a constitutional issue,
which does not require a finding that reasonable jurists would grant the requested
post-conviction relief.
For example, this Court held in Slack v. McDaniel, 529 U.S. 473, 484 (2000),
that where, as here, the district court rejects a petition on procedural grounds, “a
COA should issue when the prisoner shows, at least, that jurists of reason would find
it debatable whether the petition states a valid claim of the denial of a constitutional
right and that jurists of reason would find it debatable whether the district court was
correct in its procedural ruling.”
Subsequently, in Miller-El v. Cockrell, 537 U.S. 322, 327 (2003), this Court
elaborated that the issuance of a COA requires a “substantial showing of the denial
of a constitutional right”, which requires the petitioner to “‘show that reasonable
jurists could debate whether (or, for that matter, agree that) the petition should have
been resolved in a different manner or that the issues presented were 'adequate to
deserve encouragement to proceed further.’” Id. at 336, quoting Slack, 529 U.S. at
484.

18

This Court further noted:
“This threshold inquiry does not require full consideration
of the factual or legal bases adduced in support of the
claims. In fact, the statute forbids it. When a court of
appeals side steps this process by first deciding the merits
of an appeal, and then justifying its denial of a COA based
on its adjudication of the actual merits, it is in essence
deciding an appeal without jurisdiction.
...
We do not require petitioner to prove, before the issuance
of a COA, that some jurists would grant the petition for
habeas corpus. Indeed, a claim can be debatable even
though every jurist of reason might agree, after the COA
has been granted and the case has received full
consideration, that petitioner will not prevail.”
Id. at 336-38.
In Miller-El, this Court ultimately determined that the Fifth Circuit
improperly made a decision on the merits in denying the petitioner’s motion for a
COA, which it in fact had no jurisdiction to do before a COA was issued. Id. at 342.
As a result, this Court reversed and remanded the Fifth Circuit’s denial of the
petitioner’s motion for a COA. Id. at 342.
Likewise, in Buck v. Davis, 137 S. Ct. 759 (2017), this Court again reversed
and remanded the Fifth Circuit’s denial of the petitioner’s motion for a COA. In Buck,
the petitioner had filed a Rule 60(b) motion in the Southern District of Texas to
reopen his habeas proceeding based upon “extraordinary circumstances”. Id. The
district court denied the motion, and the Fifth Circuit declined to issue a COA. Id.
This Court reiterated in Buck that, “At the COA stage, the only question is
whether the applicant has shown that ‘jurists of reason could disagree with the
19

district court’s resolution of his constitutional claims or that jurists could conclude
the issues presented are adequate to deserve encouragement to proceed further.’” Id.
at 773, citing Miller-El, 537 U.S. at 557.
Accordingly, this Court held, the Fifth Circuit’s inquiry in Buck should have
been “whether reasonable jurists could debate the District Court’s procedural holding
that Buck had not made the necessary showing to reopen his case under Rule
60(b)(6)”. Id. at 775.
This Court concluded in Buck that while, “The court below phrased its
determination in proper terms—that jurists of reason would not debate that Buck
should be denied relief, but it reached that conclusion only after essentially deciding
the case on the merits”—namely, that Buck had failed to demonstrate extraordinary
circumstances. Id. at 773
Finally, this Court held that Buck had made a showing that “extraordinary
circumstances” exist to warrant relief under Rule 60(b) and that Buck had, moreover,
demonstrated ineffective assistance of counsel. Id. at 780.
II.

The Fifth Circuit Improperly Decided Petitioner’s Motion
for a COA on the Merits of His § 2255 Petition Rather than
Engaging in the Proper Threshold Inquiry Set by this
Court’s Precedent.

Petitioner submits that the Fifth Circuit here, as in Buck, improperly denied
his Motion for a COA based upon the merits of his § 2255 Motion and Rule 60(b)
Motion, rather than limiting its decision to the threshold inquiry set forth by this
Court in Slack, Miller-El, Buck, et al. of whether jurists of reason could disagree with
the district court’s resolution of his constitutional claims or that jurists could conclude
20

the issues presented are adequate to deserve encouragement to proceed further. See
Slack, 529 U.S. 473; Miller-El, 537 U.S. 322; Buck, 137 S. Ct. 759.
III.

Reasonable Jurists Could Debate Whether Petitioner
Made the Necessary Showing to Reopen His § 2255 Motion
by Way of His Rule 60(b) Motion, Warranting a COA.

As noted above, 28 U.S.C. § 2253 provides that a COA should issue if “if the
applicant has made a substantial showing of the denial of a constitutional right.”
This Court has specified that this requires a showing that “that jurists of reason
would find it debatable whether the petition states a valid claim of the denial of a
constitutional right and that jurists of reason would find it debatable whether the
district court was correct in its procedural ruling.” Slack, 529 U.S. at 484.
This is merely a “threshold inquiry” and should not include an analysis of the
merits of the underlying constitutional claim, which the circuit court in fact does not
have jurisdiction to decide until a COA has issues. Miller-El, 537 U.S. at 336-37.
This Court has instructed, specifically in the context of a COA for a Rule 60(b)
motion, the appropriate inquiry is, “whether reasonable jurists could debate the
District Court’s procedural holding that [the petitioner] had not made the necessary
showing to reopen his case under Rule 60(b)(6)[.]” Buck, 137 S.Ct. at 775.
A.

Rule 60(b) Can Be Utilized to Reopen a § 2255 Motion
Where
“Extraordinary
Circumstances”
Exist
Warranting Relief.

In his Rule 60(b) Motion, Petitioner made a clear showing that his § 2255
Motion should be reopened. Namely, Rule 60(b) provides that “On motion and just
terms, the court may relieve a party or its legal representative from a final judgment,

21

order, or proceeding . . .” for reasons including, among others, “newly discovered
evidence that, with reasonable diligence, could not have been discovered in time to
move for a new trial under Rule 59(b)” or “any other reason that justifies relief”. Fed.
R. Civ. P. 60(b)(2), (6).
In Buck, 137 S. Ct. 759, this Court noted that Rule 60(b) can be used to reopen
a § 2255 proceeding, where sufficient justification exists under the rule. Where a
motion is based upon Rule 60(b)(6)—“any other reason that justifies relief”—this
Court held that extraordinary circumstances must be present to warrant relief. Id.
at 777.
In determining whether extraordinary circumstances are present under Rule
60(b)(6), the court may consider a variety of factors, including “‘the risk of injustice
to the parties’ and ‘the risk of undermining the public’s confidence in the judicial
process.’” Id. at 777-78, citing Liljeberg v. Health Services Acquisition Corp., 486 U.
S. 847, 863-64 (1988).
B.

Petitioner Made a Threshold Showing in His Rule
60(b) Motion and Subsequent Motion for COA that
the Limitations Period for Filing Petitioner’s § 2255
Motion Should Be Equitably Tolled Due to
Petitioner’s
Reliance
on
Affirmative
Misrepresentations by His Prior Counsel.

The one-year (1) limitations period for the filing of a § 2255 motion may be
equitably tolled under certain circumstances. E.g., United States v. Patterson, 211
F.3d 927, 928 (5th Cir. 2000) (holding that “. . .the limitations provision in § 2255 may
be equitably tolled in rare and exceptional circumstances” and noting that the statute

22

of limitations should not be applied too harshly because dismissal of a § 2255 motion
is a “‘particularly serious matter’”).
In United States v. Perkins, 481 Fed. Appx. 114, 117 (5th Cir. 2012), the Fifth
Circuit explained that in order to establish that equitable tolling applies, the
petitioner must show that: (1) he has been pursuing his rights diligently and (2) that
some extraordinary circumstance stood in his way and prevented timely filing.’” Id.,
citing Holland v. Florida, 560 U.S. 631 (2010).
Petitioner made, in the very least, a threshold showing in his Rule 60(b) Motion
and subsequent Motion for COA that he has been diligently pursuing his rights with
regard to his § 2255 Motion throughout the limitations period and that an
extraordinary circumstance, namely, affirmative misrepresentation by his prior
counsel, stood in the way of his timely filing, warranting equitable tolling. See
Perkins, 481 Fed. Appx. at 117.
In United States v. Wynn, 292 F.3d 226, 230 (5th Cir. 2002), the Fifth Circuit
held that equitable tolling of the § 2255 limitations period may be warranted where,
among other circumstances, the petitioner can establish that he was affirmatively
misled by his attorney and that he reasonably relied on that affirmative
misrepresentation in making the late filing.

See also United States v. Riggs, 314

F.3d 796, 799 (5th Cir. 2002) (noting that an attorney’s intentional deceit may be a
basis for equitable tolling, if the petitioner can establish that he relied on the
attorney’s deceptive misrepresentations), citing Wynn, 292 F.3d at 230-31.

23

In Wessinger v. Cain, 358 F. Supp. 2d 523, 529-30 (M.D. La. 2005), the district
court reiterated this, stating,
“[A]n attorney’s conduct, if it is sufficiently egregious, may
constitute the sort of ‘extraordinary circumstances’ that
would justify the application of equitable tolling to the one
year limitations period. . . . An attorney’s intentional deceit
may warrant equitable tolling of statute of limitations on a
motion for collateral relief if a petitioner shows that he
reasonably
relied
on
his
attorney’s
deceptive
misrepresentations.”
The court further noted in Wessinger that, in order for equitable tolling to
apply, the petitioner must show that he diligently pursued his petition and that he
relied on counsel’s deceptive misrepresentation. Id. at 530. The court then held that
Wessinger had diligently pursued his application, which was filed only twenty-one
(21) days after expiration of the limitations period and that he had reasonably relied
on his counsel’s silence and misrepresentations, especially because he was
incarcerated and had little access to other legal assistance or the courts. Id. at 531.
The court concluded that the limitations period should be equitably tolled
through the date of the last filing made by Wessinger’s counsel through his
exhaustion of state court remedies. Id. at 532.
Numerous other district courts within the Fifth Circuit have also noted that
ineffective assistance of counsel may warrant equitable tolling if it rises to the level
of affirmative misrepresentation. See Didon v. Winchester, 2011 U.S. Dist. LEXIS
13113 (S.D. Miss. 2011); Olivo v. Quarterman, 2007 U.S. Dist. LEXIS 101814 (N.D.
Tex. 2007); Hurst v. Cain, 2008 U.S. Dist. LEXIS 70262 (E.D. La. 2008).

24

In this matter, Petitioner’s prior counsel, who assisted him in preparing his §
2255 Motion, affirmatively misrepresented himself as a licensed attorney, when in
fact he was not. This individual was employed by a “federal defense consulting firm”
and initially represented to Petitioner and his mother that he was himself a licensed
attorney and, later, represented that Petitioner’s § 2255 Motion would be prepared
under the guidance of licensed attorneys for the firm.
Petitioner, who was incarcerated with limited access to other legal assistance
or the courts, relied on this individual and consulting firm in preparing and filing his
§ 2255 Motion. He reasonably assumed that because the individual was an attorney
(when in fact he was not), he was familiar with the procedures for filing a § 2255
motion, including, among other things, the limitations period for doing so. Petitioner
was misled by this individual into believing that the limitations period was calculated
from the date of the Fifth Circuit Mandate, rather than the correct date of the Fifth
Circuit Order.
In fact, Petitioner’s mother has advised that she inquired of this individual on
at least four (4) occasions by telephone and text message whether the § 2255 Motion
would be filed on time, and each time, the individual assured that it would be timely
filed.
Because the Fifth Circuit Mandate was filed on March 13, 2018, Petitioner’s
prior counsel calculated the Mandate to become final ninety (90) days later, on June
13, 2018 and, subsequently, the limitations period for filing a § 2255 motion to expire
on June 14, 2019. Petitioner’s prior counsel incorrectly advised him of the June 13,

25

2019 deadline, upon which Petitioner reasonably relied, having been misled into
believing that the advice was coming from a licensed attorney.
According to this incorrect advice, Petitioner filed his § 2255 Motion on June
11, 2019, which he believed, based on incorrect advice from counsel, was within the
limitations period.

In fact, however, the limitations period should have been

calculated from the Fifth Circuit’s February 22, 2018 Opinion, rather than the March
13, 2018 Mandate, resulting in a deadline of May 22, 2019 for filing of the § 2255
Motion. As a result, Petitioner’s § 2255 Motion was filed a mere twenty (20) days
after the expiration of the limitations period and was subsequently rejected by this
Court as untimely.
Petitioner submits that had his prior counsel in fact been the licensed attorney
that he held himself out to be, he would have known that the limitations period is
calculated from the date of the Opinion rather than the date of the Mandate and
would have ensured that Petitioner submitted his § 2255 Motion within the
limitations period.

Likewise, had Petitioner’s prior counsel not affirmatively

misrepresented himself as an attorney, Petitioner and his family would have
consulted with an actual licensed attorney, and his petition would have been filed on
time.
Accordingly, Petitioner’s prior counsel affirmatively misled him and his family
into believing that he was a licensed attorney, which he was not.

Petitioner

reasonably relied on this affirmative misrepresentation when he accepted counsel’s

26

advice as to the deadline for filing his § 2255 Motion. As a result, Petitioner’s § 2255
Motion was filed outside the limitations period.
For these reasons, Petitioner made at least a threshold showing in his Rule
60(b) Motion and subsequent Motion for COA that equitable tolling of the limitations
period for filing a § 2255 Motion is warranted in this matter, to allow sufficient time
for Petitioner to consult with new counsel as to the motion and then time for new
counsel to prepare and file, with the court’s permission, an amended and/or
supplemented brief to accompany the motion.
C.

Petitioner Made a Threshold Showing in His Rule
60(b) Motion and Subsequent Motion for COA that
Because the Limitations Period Should Be Equitably
Tolled, Relief from the Court’s October 1, 2019 Order
Dismissing Petitioner’s § 2255 Motion Is Warranted
Under Rule 60(b)(2), (6).

Petitioner made, moreover, a threshold showing in his Rule 60(b) Motion and
subsequent Motion for COA that because equitable tolling of the limitations period is
warranted as a result of Petitioner’s reasonable reliance on affirmative
misrepresentations made by his prior counsel resulting in the filing of his § 2255
Motion outside the applicable limitations period, relief is warranted under Rule 60(b)
from the District Court’s October 1, 2019 Order denying Petitioner’s § 2255 Motion
as time barred.
The District Court’s October 1, 2019 Order was based upon the limitations
period without equitable tolling, as the District Court was unaware when the Order
was entered of the facts warranting equitable tolling, which, we submit, constitutes
an “extraordinary circumstance” meriting relief under Rule 60(b)(6).
27

In addition, Petitioner did not learn that his prior counsel had affirmatively
misled him into believing he was a licensed attorney and, later, that his motion would
be prepared under the guidance of licensed attorneys from the “federal defense
consulting firm” which he had hired, until after the motion had been filed. Therefore,
this constitutes “newly discovered evidence”, which Petitioner could not have
discovered prior to the filing of his § 2255 Motion, given his incarceration, warranting
relief from the District Court’s October 1, 2019 Order under Rule 60(b)(2) as well.
Finally, Petitioner’s § 2255 Motion was filed only twenty (20) days after
expiration of the limitations period, Petitioner has been incarcerated for the duration
of the limitations period with limited access to legal resources or the courts, and
Petitioner has since retained new counsel, through whom the instant Petition is filed.
Petitioner has, therefore, been diligently pursuing his rights with regard to this
matter for the duration of the limitations period, as well as the time that has followed
since the expiration thereof.
Accordingly, Petitioner made a threshold showing in his Rule 60(b) Motion and
subsequent Motion for COA that relief is warranted from the District Court’s October
1, 2019 Order, warranting the issuance of a COA.
IV.

Therefore, Certiorari Should Be Granted Because the
Fifth Circuit’s Decision Was Contrary to this Court’s
Precedent.

Supreme Court Rule 10 provides, “Review on a writ of certiorari is not a matter
of right, but of judicial discretion. A petition for a writ of certiorari will be granted
only for compelling reasons.” Pursuant to Rule 10, the “character of reasons the Court

28

considers” in determining whether to grant certiorari includes, among others,
situations where, “a United States court of appeals . . . has decided an important
federal question in a way that conflicts with relevant decisions of this Court.”
In this matter, for the reasons set forth above, the Fifth Circuit denied
Petitioner’s Motion for COA in a manner which conflicts with the clear precedent set
by this Court in Slack, Miller-El, Buck, et al. See Slack, 529 U.S. 473; Miller-El, 537
U.S. 322; Buck, 137 S. Ct. 759.
In fact, reasonable jurists could disagree with the district court’s resolution of
Petitioner’s constitutional claims or could conclude the issues presented are adequate
to deserve encouragement to proceed further, warranting a COA pursuant to this
Court’s precedent. See Slack, 529 U.S. 473; Miller-El, 537 U.S. 322; Buck, 137 S. Ct.
759.
Petitioner submits, moreover, that a COA is especially warranted in light of
the injustices suffered by Petitioner in this matter, including, among others, error by
the Fifth Circuit in refusing to issue a COA, the extreme 408-month sentence which
he received as a first-time drug offender, the fact that this trial lasted less than two
(2) days, and the affirmative misrepresentations made to Petitioner and his mother
by the consultant who assisted Petitioner in filing his § 2255 Motion and falsely held
himself out to be a licensed attorney, and the serious errors made by his trial counsel
in, among other things, failing to request and obtain critical evidence and failure to
call witnesses.

29

A COA is necessary so that Petitioner may have his § 2255 Motion reopened so
that he may raise these arguments and have his § 2255 Motion regarding these
injustices heard on the merits.
Accordingly, Petitioner submits that certiorari is warranted and that this Fifth
Circuit’s May 17, 2021 Order denying Petitioner’s Motion for COA should be reversed
and a COA should be issued to allow Petitioner to appeal the District Court’s denial
of his Rule 60(b) Motion.
CONCLUSION
For all the foregoing reasons, Petitioner respectfully requests that the Court
grant this Petition for a Writ of Certiorari.
DATED: 13 July, 2021
Respectfully submitted,
/s/ Patrick A. Mullin
Patrick A. Mullin, Esq.
The Law Offices of Patrick A. Mullin
45 Rockefeller Plaza, Suite 2000
New York, New York 10111
Telephone: (212)639-1600
Facsimile: (201)242-9610
Mullin@taxdefense.com
Attorney for Petitioner,
Jonathon Herrera

30

